DEPARTMENT OF HOMELAND SECURITY
               F R   FICIAL USE ONL




   Office of Inspector General


   The State of Arizona’s Management of 

     State Homeland Security Grants 

       Awarded During Fiscal Years 

             2004 through 2006 





OIG-08-99                             September 2008
                                                              Office of Inspector General

                                                              U.S. Department of Homeland Security
                                                              Washington, DC 20528




                                  September 26, 2008


                                       Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

The attached report presents the results of the audit of the State of Arizona’s Management
of State Homeland Security Grants awarded during Fiscal Years 2004 through 2006. We
contracted with the independent public accounting firm Williams, Adley & Company,
LLP to perform the audit. The contract required that Williams, Adley & Company, LLP
perform its audit according to generally accepted government auditing standards.
Williams, Adley & Company, LLP’s report identifies two reportable conditions where
State management of the grant funds could be improved, resulting in two
recommendations addressed to the Administrator, Federal Emergency Management
Agency. Williams, Adley & Company, LLP is responsible for the attached auditor’s
report dated September 2, 2008, and the conclusions expressed in the report.

The recommendations herein have been discussed in draft with those responsible for
implementation. It is our hope that this report will result in more effective, efficient, and
economical operations. We express our appreciation to all of those who contributed to
the preparation of this report.




                                       Richard L. Skinner 

                                       Inspector General 

                   Williams, Adley & Company, LLP
Certified Public Accountants/Management Consultants


September 2, 2008

Ms. Anne L. Richards
Assistant Inspector General for Audits
Office of Inspector General
Department of Homeland Security
245 Murray Drive, S.W. Building 410
Washington, D.C. 20528

Dear Ms. Richards:

Williams, Adley & Company, LLP performed an audit of the State of Arizona’s
management of the Department of Homeland Security’s State Homeland Security Grants
for Fiscal Years 2004 through 2006. The audit was performed in accordance with our
Task Order No. TPD-ARC-BPA-07-0014-0001, dated September 25, 2007. This report
presents the results of the audit and includes recommendations to help improve the
State’s management of the audited State Homeland Security Grant Programs.

Our audit was conducted in accordance with applicable Government Auditing Standards,
2003 revision. The audit was a performance audit as defined by Chapter 2 of the
Standards and it included a review and report of program activities with a compliance
element. Although the audit report comments on costs claimed by the State, we did not
perform a financial audit, the purpose of which would be to render an opinion on the
State of Arizona’s financial statements or the funds claimed in the Financial Status
Reports submitted to the Department of Homeland Security.

We appreciate the opportunity to have conducted this audit. Should you have any
questions, or if we can be of any further assistance, please call me at (202) 371-1397.

Sincerely,

Williams, Adley & Company, LLP




Jocelyn A. Hill
Partner
Table of Contents/Abbreviations 


Executive Summary ............................................................................................................. 1 


Background .......................................................................................................................... 2 


Results of Audit ................................................................................................................... 6 


    State Withheld Portion of Local Units’ Funding Without Proper Documentation ......... 7 

    Recommendation ............................................................................................................ 8

    Management Comments and Auditor’s Analysis ........................................................... 8 


    Subgrantee Program Monitoring Needs Improvement ................................................... 9 

    Recommendation .......................................................................................................... 10 

    Management Comments and Auditor’s Analysis ......................................................... 10 



Appendices
    Appendix A:          Purpose, Scope, and Methodology ......................................................... 12 

    Appendix B:          Organizational Charts ............................................................................. 16 

    Appendix C:          Management Comments to the Draft Report ......................................... 18 

    Appendix D:          Report Distribution ................................................................................. 22 




Abbreviations
     DHS                 Department of Homeland Security 

     OIG                 Office of Inspector General 

     FEMA                Federal Emergency Management Agency 

     FY                  Fiscal Year          

OIG 

Department of Homeland Security
Office of Inspector General

Executive Summary
                 Williams, Adley & Company, LLP completed an audit of the
                 Department of Homeland Security State Homeland Security Grant
                 Programs awarded to the State of Arizona during Fiscal Years 2004
                 through 2006. The objectives of the audit were to determine whether
                 the State Administrative Agency (1) effectively and efficiently
                 implemented the State Homeland Security Grant Programs,
                 (2) achieved the goals of the programs, and (3) spent funds in
                 accordance with grant requirements. The audit included a review of
                 approximately $103.1 million in Homeland Security Grants awarded
                 by the Federal Emergency Management Agency to the State of
                 Arizona in Fiscal Years 2004 through 2006.

                 Overall, the State Administrative Agency did an efficient and effective
                 job of administering the program requirements, distributing grant funds,
                 and ensuring that all of the available funds were used. The State used
                 reasonable methodologies for assessing threat, vulnerability, capability,
                 and prioritized needs, and complied with cash management and status
                 reporting requirements. Also, the State generally spent the grant funds
                 in accordance with grant requirements and State-established priorities,
                 and appropriately allocated funding based on threats, vulnerabilities,
                 capabilities, and priorities. The procurement methodology was in
                 conformance with the State’s strategy.

                 However, the State withheld portions of local units’ funding without
                 proper documentation and did not perform adequate programmatic
                 monitoring of subgrantees. Our recommendations call for the
                 Administrator, Federal Emergency Management Agency, to require
                 the State to implement control procedures regarding approval and
                 documentation of funds withheld for centralized procurements, and
                 implement a full-scope subgrantee monitoring program. Federal
                 Emergency Management Agency officials verbally concurred with
                 the recommendations, while State officials only concurred with the
                 recommendation on withholding funding without proper
                 documentation. State officials also provided a written response to
                 the recommendations included as Appendix C. Based on clarifying
                 information provided by Federal Emergency Management Agency
                 officials, we deleted from this report an issue and recommendation
                 originally included in the draft report on maintaining detailed
                 equipment lists, which has been resolved.
            The State of Arizona’s Management of State Homeland Security Grants 

                       Awarded During Fiscal Years 2004 through 2006 


                                          Page 1 

Background
                The Homeland Security Grant Program is a federal assistance grant
                program administered by the U.S. Department of Homeland
                Security (DHS), Grant Programs Directorate within the Federal
                Emergency Management Agency (FEMA). The current Grant
                Programs Directorate, hereafter referred to as FEMA, began with
                the Office of Domestic Preparedness, which was transferred from
                the Department of Justice to DHS in March 2003. The Office of
                Domestic Preparedness was subsequently consolidated into the
                Office of State and Local Government Coordination and
                Preparedness which, in part, became the Office of Grants and
                Training, and which subsequently became part of FEMA.

                Although the grant program was transferred to DHS, applicable
                Department of Justice grant regulations and legacy systems were
                still used as needed to administer the program. For example, the
                State Administrative Agency entered payment data into the Office
                of Justice Programs’ Phone Activated Paperless Request System,
                which was a drawdown payment system for grant funds.

                Homeland Security Grant Programs

                The Homeland Security Grant Programs provide federal funding to
                help states and local agencies enhance their capabilities to prevent,
                deter, respond to, and recover from threats or acts of terrorism.
                The programs encompassed several different federal grant
                programs and, depending on the fiscal year, included some or all of
                the following programs: the State Homeland Security Grant
                Program, the Law Enforcement Terrorism Prevention Program, the
                Citizen Corps Program, the Urban Areas Security Initiative, the
                Metropolitan Medical Response System Program, and the
                Emergency Management Performance Grants.

                State Homeland Security Grant Program provides financial
                assistance directly to each of the states and territories to prevent,
                respond to, and recover from acts of terrorism. The program
                supports the implementation of the State Homeland Security
                Strategy to address the identified planning, equipment, training,
                and exercise needs.

                Law Enforcement Terrorism Prevention Program provides law
                enforcement communities with funds to support the following
                prevention activities: information sharing to preempt terrorist
                attacks, target hardening to reduce vulnerability of selected high
                value targets; recognition and mapping of potential or developing
         The State of Arizona’s Management of State Homeland Security Grants 

                    Awarded During Fiscal Years 2004 through 2006 


                                       Page 2
       threats, counterterrorism and security planning; interoperable
       communications, interdiction of terrorists before they can execute
       a threat, and intervention activities that prevent terrorists from
       executing a threat. These funds may be used for planning,
       organization, training, exercises, and equipment.

       Citizen Corps Program is the department’s grass-roots initiative
       to actively involve all citizens in hometown security through
       personal preparedness, training, and volunteer service. Funds are
       used to support Citizen Corps Councils with efforts to engage
       citizens in preventing, preparing for, and responding to all hazards,
       including planning and evaluation, public education and
       communication, training, participation in exercises, providing
       proper equipment to citizens with a role in response, and
       management of Citizen Corps volunteer programs and activities.

       Urban Areas Security Initiative provides financial assistance to
       address the unique planning, equipment, training, and exercise
       needs of high risk urban areas, and to assist them in building an
       enhanced and sustainable capacity to prevent, respond to, and
       recover from threats or acts of terrorism. Allowable costs for the
       urban areas are consistent with the State Homeland Security
       Program and funding is expended based on the Urban Area
       Homeland Security Strategies.

       Metropolitan Medical Response System Program supports
       jurisdictions in further enhancement and sustainment of their
       integrated, systematic mass casualty incident preparedness to
       respond to mass casualty events during the first hours of a
       response. This includes the planning, organizing, training, and
       equipping concepts, principles, and techniques, which enhance
       local jurisdictions’ preparedness to respond to the range of mass
       casualty incidents – from chemical, biological, radiological,
       nuclear, and explosive events to epidemic outbreaks, natural
       disasters, and large-scale hazardous materials incidents.

       Emergency Management Performance Grant funds are used to
       support comprehensive emergency management at the state and
       local levels and to encourage the improvement of mitigation,
       preparedness, response, and recovery capabilities for all hazards.
       DHS is responsible for leading and supporting the nation in a
       comprehensive, risk-based, all-hazards emergency management
       program, and these performance grant funds are a primary means
       of ensuring the development and maintenance of such a program.


The State of Arizona’s Management of State Homeland Security Grants 

           Awarded During Fiscal Years 2004 through 2006 


                              Page 3
       Funds may also be used to support activities for managing
       consequences of acts of terrorism.

       State Administrative Agency

       State governors appoint a State Administrative Agency to
       administer the Homeland Security Grant Program. The State
       Administrative Agency is responsible for managing these grant
       programs in accordance with established federal guidelines. The
       State Administrative Agency is also responsible for allocating funds
       subgranted to local, regional, and other state government agencies.

       In 1999, the Governor designated the Arizona Division of
       Emergency Management as the State Administrative Agency for
       Arizona’s Homeland Security Grant Program. The Homeland
       Security Grants Management section within the Arizona Division of
       Emergency Management was the central point of contact for the
       Homeland Security Grant Program. However, other sections within
       the Arizona Division of Emergency Management aided in planning
       and managing the program by conducting exercises in areas such as
       counterterrorism and emergency preparedness, and by providing
       training to state agency and local jurisdiction personnel.

       During 2003 through 2006, the Arizona Office of Homeland
       Security, Arizona Department of Emergency and Military Affairs,
       and the Arizona Division of Emergency Management served as the
       liaisons between DHS and state agencies and local jurisdictions
       within Arizona. The Arizona Office of Homeland Security
       coordinated the process of allocating federal funding to state and
       local jurisdictions, approved projects ensuring compliance with
       federal grant guidelines, and supported Arizona’s homeland
       security strategy. Based on approved projects, the Arizona
       Division of Emergency Management distributed federal monies to
       all participating jurisdictions in the State, including other State
       agencies, counties, cities and towns, fire districts, and Native
       American tribes.

       In September 2006, the Arizona Office of Homeland Security was
       converted to the Arizona Department of Homeland Security as
       established by Arizona Revised Statute Title 41. In conjunction
       with this conversion, oversight of the State Homeland Security
       Grant Program was transferred from the Arizona Division of
       Emergency Management to the Arizona Department of Homeland
       Security effective fiscal year 2007, including the designation as
       State Administrative Agency. The Arizona Division of Emergency

The State of Arizona’s Management of State Homeland Security Grants 

           Awarded During Fiscal Years 2004 through 2006 


                              Page 4
       Management and the Arizona Department of Homeland Security’s
       organizational structure are detailed in Appendix B.

       Grant Funding

       The State of Arizona received approximately $103.1 million in
       funds from the Homeland Security Grant Program during Fiscal
       Years (FY) 2004 through 2006. During that timeframe, the
       Arizona Division of Emergency Services awarded subgrants to
       15 counties within 5 Regions. The State used the grant funds
       primarily to purchase equipment for law enforcement, fire rescue,
       medical emergency, and other personnel, and to provide
       preparedness training and exercises. Table 1 shows a breakdown
       of the grant funds by year and funded activity. Note that not all
       funded activities were part of the Homeland Security Grant
       Program during each of the fiscal years.

                                            Table 1
                        Arizona Homeland Security Grant Awards
                             Fiscal Years 2004 through 2006

                                Grant Programs (‘000s)
                               2004          2005        2006
                             Homeland     Homeland     Homeland
        Funded Activity       Security     Security     Security          Total
                               Grant        Grant        Grant
                             Program      Program      Program
      State Homeland
      Security Grant          $ 31,304       $ 20,022      $ 8,660    $ 59,986
      Program
      Law Enforcement
      Terrorism               $ 9,289        $ 7,281       $ 6,290    $ 22,860
      Prevention Program
      Citizen Corps
                             $      650      $    254      $    372   $    1,276
      Program
      Metropolitan
                                      Not
      Medical Response                       $    910      $    929   $    1,839
                                 Included
      System Program
      Urban Areas                     Not
                                             $ 9,996       $ 3,920    $ 13,916
      Security Initiative        Included
      Emergency
                                      Not                       Not
      Management                             $ 3,242                  $    3,242
                                 Included                  Included
      Performance Grant
      Total                   $ 41,243       $ 41,705      $ 20,171   $ 103,119

       Williams, Adley & Company, LLP completed an audit of the State
       of Arizona’s Management of State Homeland Security Grants
The State of Arizona’s Management of State Homeland Security Grants
           Awarded During Fiscal Years 2004 through 2006

                              Page 5
                  awarded during FYs 2004 through 2006. The objectives of the
                  audit were to determine whether the State Administrative Agency
                  (1) effectively and efficiently implemented State Homeland
                  Security grant programs, (2) achieved the goals of the programs,
                  and (3) spent funds in accordance with grant requirements. The
                  goal of the audit was to identify problems and solutions that would
                  help the State of Arizona prepare for and respond to terrorist
                  attacks. Nine researchable questions, provided by the DHS Office
                  of Inspector General (OIG), established the framework for the
                  audit. The researchable questions were related to the State
                  Administrative Agency’s planning, management, and results
                  evaluations of grant activities. Appendix A provides additional
                  details on the purpose, scope, and methodology of this audit,
                  including the nine researchable questions.


Results of Audit
                  Overall, the State Administrative Agency did an efficient and
                  effective job of administering the program requirements,
                  distributing grant funds, and ensuring that all of the available funds
                  were used. The Arizona Division of Emergency Management used
                  reasonable methodologies for assessing threat, vulnerability,
                  capability, and prioritized needs and complied with cash
                  management and status reporting requirements. Also, the Arizona
                  Division of Emergency Management generally spent the grant
                  funds in accordance with grant requirements and State-established
                  priorities, and appropriately allocated funding based on threats,
                  vulnerabilities, capabilities and priorities. The procurement
                  methodology was in conformance with the State’s strategy.

                  Although this audit included a review of some of the costs claimed
                  with grant funds, we did not perform a financial audit of those
                  costs. Accordingly, we do not express an opinion on the State of
                  Arizona’s financial statements or the funds claimed in the
                  Financial Status Reports submitted to FEMA.

                  However, as demonstrated by the findings in this report, the State
                  Administrative Agency did not ensure that:

                  •	 Documentation was maintained to support allocating less than
                     80% of grant funds to the local government units; and
                  •	 Full-scope subgrantee program monitoring was performed.



           The State of Arizona’s Management of State Homeland Security Grants 

                      Awarded During Fiscal Years 2004 through 2006 


                                         Page 6
State Withheld Portion of Local Units’ Funding Without Proper
Documentation
             During FYs 2004 through 2006, the Arizona Division of
             Emergency Management withheld a total of $7,072,016 in grant
             funds from local units without a written memorandum of
             understanding to document approval to do so. The grant funds
             from local units were withheld to provide centrally procured
             training to local units of government. Table 2, Grant Funds
             Withheld from Local Units, shows the amount of grants funds
             withheld by the Arizona Division of Emergency Management:

                                               Table 2
                                 Arizona Homeland Security Grant Awards
                                      Fiscal Years 2004 through 2006

                                  Grant Funds Withheld From Local Units
                                                                   Amount
                                                       Amount                 Percentage
                               Total Grant                         Withheld
                  Grant                     80% of    Obligated               Obligated
                               Awarded to                         by State on
                 Program                    Grant      to Local                To Local
                                  State                            Behalf of
                                                         Units                  Units
                                                                 Local Units
              FY 2004
              State
              Homeland         $31,304,571 $25,043,657    $23,729,610   $1,314,047   75.8%
              Security Grant
              Program
              FY 2004
              Law
              Enforcement
                                $9,288,429   $7,430,743    $4,465,342   $2,965,401   48.1%
              Terrorism
              Prevention
              Program
              FY 2005
              State
              Homeland         $20,021,731 $16,017,385    $14,230,385   $1,787,000   71.1%
              Security Grant
              Program
              FY 2006
              State
              Homeland          $8,660,000   $6,928,000    $5,922,432   $1,005,568   68.4%
              Security Grant
              Program
              Total            $69,274,731 $55,419,785    $48,347,769   $7,072,016


             The State Domestic Preparedness Program Guidelines and
             Application for FYs 2004 through 2006 direct that each State shall
             obligate not less than 80% of the total amount of the grant to local
             units of government within 60 days after the grant award. If
      The State of Arizona’s Management of State Homeland Security Grants
                 Awarded During Fiscal Years 2004 through 2006

                                    Page 7
       requested in writing by a local unit of government, the State may
       retain some or the entire local units of government’s allocation of
       grant funds for purchases made by the State on behalf of the local
       unit of government. States holding grant funds must enter into a
       memorandum of understanding with the local unit of government
       specifying the amount of funds to be withheld by the State for
       purchases. This agreement must be kept on file with the State
       Administrative Agency.

       The Arizona’s Division of Emergency Management was unable to
       provide written documentation to support its agreement with local
       units of government to provide training.

       The Arizona Division of Emergency Management is not in
       compliance with grant program guidelines that require a written
       memorandum of understanding between the Arizona Division of
       Emergency Management and local units of government specifying
       the amount of funds to be withheld by the State for purchases.
       Without such documentation, we cannot determine whether local
       units of government gave authorization to the State to spend a
       portion of their grants funds on centrally procured training.

Recommendation
       Recommendation #1: We recommend that the Administrator,
       Federal Emergency Management Agency, require the State
       Administrative Agency to implement control procedures to ensure
       that any funds withheld by the State have been properly requested
       in writing by the local government unit and the State keep such
       agreement in their records.

Management Comments and Auditor’s Analysis
       We received verbal concurrence on the recommendation from
       FEMA officials. Officials within the Arizona Division of
       Emergency Management and the Arizona Department of
       Homeland Security also concurred with the recommendation.

       In their written comments, State officials said they implemented
       control procedures during 2006 to ensure that any funds withheld
       by the State on behalf of the local units of government are properly
       requested in writing by the local units, and that such
       documentation is maintained in State records. State officials have
       incorporated DHS template documents into the grant process to
       help comply with this requirement.
The State of Arizona’s Management of State Homeland Security Grants 

           Awarded During Fiscal Years 2004 through 2006 


                              Page 8
             We agree that this action addresses the intent of the
             recommendation. As such, this recommendation is now resolved
             and closed.


Subgrantee Program Monitoring Needs Improvement
             During FYs 2004 through 2006, Arizona Division of Emergency
             Management program planners did not perform full-scope
             subgrantee monitoring to ensure performance in accordance with
             program goals. Although the Arizona Division of Emergency
             Management has developed some program monitoring guidance,
             subgrantee monitoring was not fully implemented. The Arizona
             Division of Emergency Management personnel performed desk
             reviews of subgrantees’ financial records which were financial
             reviews of subgrantee spending and financial recordkeeping. In
             addition, Arizona Division of Emergency Management performed
             equipment reviews, but there is no evidence that regular
             monitoring of full program compliance occurred. This condition
             was previously noted in FYs 2005 and 2006 Single Audit Reports
             as well as in the FEMA monitoring visit report dated
             October 18, 2007.

             In accordance with Code of Federal Regulations Title 28 § 66.40
             Monitoring and reporting program performance, grantees are
             responsible for managing the day-to-day operations of grant and
             subgrant supported activities. Grantees must monitor grant and
             subgrant supported activities to assure compliance with applicable
             Federal requirements and that performance goals are being
             achieved. Grantee monitoring must cover each program, function,
             or activity.

             Furthermore, according to the DHS Office of Grant Operations
             Financial Management Guide, dated January 2006, a recipient has
             full responsibility for the conduct of the project or activity
             supported and for the results achieved. The recipient must monitor
             the performance of the project to assure adherence to performance
             goals, time schedules or other requirements as appropriate to the
             project or the terms of the agreement. The recipient is responsible
             for monitoring the activities of and pass-through requirements to
             any subrecipients.

             If the State does not adequately monitor subgrantee program
             performance, the State cannot determine if program goals are met

      The State of Arizona’s Management of State Homeland Security Grants 

                 Awarded During Fiscal Years 2004 through 2006 


                                    Page 9
       and assets purchased are used as intended. Further, lack of
       adequate programmatic monitoring prevents the State from being
       able to measure improved preparedness in several areas:

            •	 Equipment: Emergency responders’ capacity to respond
               with new equipment to incidents that pose a threat to
               homeland security;
            •	 Training: Number of emergency responders who have
               increased skills needed to respond to threats to homeland
               security and use the new equipment properly; and
            •	 Exercises: Number of task forces, counties, or emergency
               responders that participated in exercises.

Recommendation
       Recommendation #2: We recommend that the Administrator,
       Federal Emergency Management Agency, require the State
       Administrative Agency to implement a full-scope program
       monitoring plan that includes review of program and financial
       reports, site visits, teleconferences, and other means as appropriate.

Management Comments and Auditor’s Analysis
       We received verbal concurrence with the recommendation from
       FEMA officials. Officials within the Arizona Division of
       Emergency Management and the Arizona Department of
       Homeland Security did not concur with the recommendation and
       requested that the auditor review additional documentation as
       evidence of programmatic monitoring.

       Subsequent to the exit conference, the auditor reviewed additional
       documentation provided by the Arizona Division of Emergency
       Management and the Arizona Department of Homeland Security
       and contends that the finding and recommendation continue to be
       relevant for the scope of this audit which covers FYs 2004 through
       2006 of the State Homeland Security Grant Programs. In their
       written comments, State officials said they currently employ
       various methods to monitor subgrantees, including equipment
       monitoring, fiscal desktop reviews, and review of supporting
       documentation justifying reimbursement requests. Specifically,
       the Arizona Department of Homeland Security maintains that
       beginning in January 2007, a monitoring tool was developed, pilot-
       tested and incorporated as policy. This tool includes financial,
       equipment, and programmatic components for a monitoring

The State of Arizona’s Management of State Homeland Security Grants 

           Awarded During Fiscal Years 2004 through 2006 


                             Page 10
       program that includes site visits, telephone and/or email contact,
       progress/program reports, and financial reports. Also beginning
       November 2008, the Arizona Department of Homeland Security
       will implement a policy of conducting site visits for 100% of
       subgrantees that have expended more than $100,000 per award.

       The auditor maintains that while the Arizona Department of
       Homeland Security appears to have made significant progress
       since FY 2006 with development and implementation of its
       program monitoring plan, full-scope program monitoring did not
       occur during the scope of our audit.

       The Arizona Department of Homeland Security further states in its
       written comments that it strongly disagrees that subgrantee
       program monitoring should be a finding because of the lack of
       clarity in the Office of Management and Budget Circular A-102
       and grant program guidance.

       The auditor has removed reference to Office of Management and
       Budget Circular A-102, but continues to support the relevancy of
       the program guidance, the intent of which is to require full
       program monitoring of financial, equipment, and programmatic
       performance.

       The Administrator, Federal Emergency Management Agency,
       needs to provide corrective actions and a plan to implement these
       actions within 90 days.




The State of Arizona’s Management of State Homeland Security Grants 

           Awarded During Fiscal Years 2004 through 2006 


                             Page 11
Appendix A
Purpose, Scope, and Methodology

                    The purpose of the audit was to determine whether the State of
                    Arizona effectively and efficiently implemented the state
                    homeland security grant program, achieved the goals of the
                    program, and spent funds according to grant requirements. The
                    goal of the audit was to identify problems and solutions that can
                    help the State of Arizona better prepare for and respond to terrorist
                    attacks. The audit further enabled us to answer the following
                    researchable questions:

                    	 Did the State use reasonable methodologies for assessing
                       threat, vulnerability, capability, and prioritized needs?

                    	 Did the State appropriately allocate funding based on threats,
                       vulnerabilities, capabilities, and priorities?

                    	 Has the State developed and implemented plans to measure
                       improvements in preparedness as a result of the grants and
                       have such measurement efforts been effective?

                    	 Are the State’s procurement methodologies (centralized, local,
                       or combination) reasonable and in conformance with its
                       homeland security strategies?

                    	 Does the State Administrative Agency have procedures in place
                       to monitor the funds and activities at the local level to ensure
                       that grant funds are spent according to grant requirements and
                       the State-established priorities? Have these monitoring
                       procedures been implemented and are they effective?

                    	 Did the State comply with cash management requirements and
                       the DHS financial and status reporting requirements for the
                       grant programs and did local jurisdictions spend grant funds
                       advanced by the State in a timely manner and, if not, what
                       caused the delays?

                    	 Were grant funds used according to grant requirements and
                       State-established priorities?

                    	 Was the time it took the State to get funds/equipment to first
                       responders (from the time the funds/equipment were available
                       to the State until they were disbursed/provided to the
                       jurisdiction) reasonable (auditor judgment), and if not, what
                       caused the delays?



             The State of Arizona’s Management of State Homeland Security Grants 

                        Awarded During Fiscal Years 2004 through 2006 


                                           Page 12 

Appendix A
Purpose, Scope, and Methodology

                    	 Are there best practices that can be identified and shared with
                       other states and the DHS?

                    The scope of the audit included the following grant programs,
                    described in the Background section of this report.

                    	 FY 2004 State Homeland Security Grant Program

                    	 FY 2005 State Homeland Security Grant Program

                    	 FY 2006 State Homeland Security Grant Program

                    The audit methodology included work at DHS Headquarters, State
                    of Arizona’s offices responsible for the management of the grants,
                    and various subgrantee locations. To achieve our audit objectives
                    we analyzed data, reviewed documentation, and interviewed the
                    key state and local officials directly involved in the management
                    and administration of the State of Arizona’s Homeland Security
                    Grant Programs. We conducted 48 site visits and held discussions
                    with appropriate officials from all 15 counties, representing all
                    5 regions, in order to determine if program grant funds were
                    expended according to grant requirements and State-established
                    priorities.

                    We conducted site visits to the following 48 first responders and
                    local jurisdictions:

                       Maricopa County Sheriff’s Office
                       Goodyear Police Department
                       Maricopa County
                       City of Mesa
                       American Red Cross Arizona
                       City of Scottsdale
                       City of Tempe Fire and Police Departments
                       Arizona Division of Emergency Management
                       Arizona Department of Liquor License and Control
                       City of Phoenix
                       Peoria Fire and Police Departments
                       Arizona Department of Public Safety
                       Arizona Criminal Justice Commission
                       Glendale Fire and Police Departments
                       Arizona Department of Transportation
                       City of Gilbert
                       Maricopa Medical Center
                       Flagstaff Police and Fire Departments

             The State of Arizona’s Management of State Homeland Security Grants 

                        Awarded During Fiscal Years 2004 through 2006 


                                          Page 13
Appendix A
Purpose, Scope, and Methodology

                       Hopi Tribe Emergency Management
                       Navajo Sheriff’s Office
                       Apache Tribe County Emergency Management
                       Springerville Police Department
                       Eagar Police Department
                       White Mountain Apache Tribe Fire Department
                       Page Fire Department
                       Bisbee Police Department (also includes Cochise County
                        Sheriff’s Office)
                       Town of Santa Cruz
                       Tucson Police and Fire Departments
                       Douglas Fire Department
                       Northwest Fire District
                       Pima County Office of Emergency Management
                       Pima County Sheriff’s Office
                       City of Sierra Vista
                       Town of Tohono O’odham Emergency Management
                       Yuma Emergency Management, Sheriff’s Office, and Police
                        Department
                       Pinal County Emergency Management
                       Casa Grande Emergency Management
                       Greenlee Emergency Management
                       Graham County Emergency Management
                       City of Kingman
                       Fort Mohave County
                       La Paz County
                       City of Lake Havasu
                       Mohave County
                       City of Prescott
                       Town of Quartzsite
                       Yavapai County
                       City of Nogales

                    At each location, we interviewed responsible officials, reviewed
                    documentation supporting the State and subgrantees’ management
                    of the awarded grant funds, and physically inspected some of the
                    equipment procured with the grant funds. We reviewed prior audit
                    reports and coordinated our work with both the Arizona Division
                    of Emergency Management and Arizona Department of Homeland
                    Security. We conducted the fieldwork between January 2008 and
                    March 2008 in accordance with Government Auditing Standards as
                    prescribed by the Comptroller General of the United States
                    (Yellow Book-2003 Revision). Although this audit included a
                    review of costs claimed, we did not perform a financial audit of
                    those costs.

             The State of Arizona’s Management of State Homeland Security Grants 

                        Awarded During Fiscal Years 2004 through 2006 


                                          Page 14
Appendix A
Purpose, Scope, and Methodology


                    We were not engaged to and did not perform a financial statement
                    audit, the objective of which would be to express an opinion on
                    specified elements, accounts, or items. Accordingly, we were
                    neither required to, nor expressed an opinion on the costs claimed
                    for the grant programs included in the scope of the audit. Had we
                    been required to perform additional procedures, or conducted an
                    audit of the financial statements in accordance with generally
                    accepted auditing standards, other matters might have come to our
                    attention that would have been reported. This report relates only to
                    the programs specified and does not extend to any financial
                    statements of the State of Arizona.

                    While the audit work was performed and the report was prepared
                    under contract, the audit results are being reported by the DHS
                    Office of Inspector General to appropriate Federal Emergency
                    Management Agency officials and State of Arizona officials.




             The State of Arizona’s Management of State Homeland Security Grants 

                        Awarded During Fiscal Years 2004 through 2006 


                                          Page 15
Appendix B
Organizational Charts




              The State of Arizona’s Management of State Homeland Security Grants 

                         Awarded During Fiscal Years 2004 through 2006 


                                           Page 16

Appendix B
Organizational Charts




                  Arizona Division of Emergency Management


   Arizona
 Emergency                                   DIRECTOR
  Response                                   L. Trammell
 Commission




                          FISCAL
                         SERVICES
                         MANAGER

                          J. Phelps
                                                                  LEAD PUBLIC
                                                                 INFORMATION
                                                                    OFFICER

                                                                    J. Kioski




  PREPAREDNESS                  OPERATIONS                       LOGISTICS                 RECOVERY
     SECTION                     SECTION                          SECTION                   SECTION
 Assistant Director           Assistant Director              Assistant Director      Assistant Director

    J. Kimmell                   C. McHugh                        M. Parks                B. Zimmerman




                  The State of Arizona’s Management of State Homeland Security Grants 

                             Awarded During Fiscal Years 2004 through 2006 


                                                   Page 17

Appendix C
Management Comments to the Draft Report




             The State of Arizona’s Management of State Homeland Security Grants 

                        Awarded During Fiscal Years 2004 through 2006 


                                          Page 18

Appendix C
Management Comments to the Draft Report




             The State of Arizona’s Management of State Homeland Security Grants 

                        Awarded During Fiscal Years 2004 through 2006 


                                          Page 19

Appendix C
Management Comments to the Draft Report




             The State of Arizona’s Management of State Homeland Security Grants 

                        Awarded During Fiscal Years 2004 through 2006 


                                          Page 20

Appendix C
Management Comments to the Draft Report




             The State of Arizona’s Management of State Homeland Security Grants 

                        Awarded During Fiscal Years 2004 through 2006 


                                          Page 21

Appendix D
Report Distribution



                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs

                      Federal Emergency Management Agency

                      Administrator
                      Assistant Administrator, Grant Programs Directorate
                      Deputy Administrator, National Preparedness Directorate
                      Federal Emergency Management Agency Audit Liaison
                      Grant Programs Directorate Audit Liaison
                      National Preparedness Directorate Audit Liaison


                      Office of Management and Budget

                      Chief, Homeland Bureau Chief
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




              The State of Arizona’s Management of State Homeland Security Grants 

                         Awarded During Fiscal Years 2004 through 2006 


                                           Page 22
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528,

The OIG seeks to protect the identity of each writer and caller.
